IN THE
SUPREME COURT OF THE UNITED STATES
)
UNITED STATES OF AMERICA,
)
Petitioner, )
)
v.
)
STATE OF CALIFORNIA, ET AL.,
)
Respondents. )
)

No. 19-532
On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the
Ninth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the “Brief Amici
Curiae of California Municipalities and Elected Officials in Support of Petitioner”
filed on behalf of the Hon. Jim Desmond, San Diego County Supervisor and former
Mayor of the City of San Marcos, the Hon. Dean Grose, City of Los Alamitos Council
Member, the Hon. David Harrington, City of Aliso Viejo Council Member, the Hon.
Shelley Hasselbrink, City of Los Alamitos Council Member. and the Hon. Rebecca
Jones, Mayor of the City of San Marcos, in their respective individual capacities, and
the County of San Diego, the City of Aliso Viejo, the City of Laguna Niguel, the City
of Mission Viejo, the City of Ridgecrest, the City of Santa Clarita, the City of San
Jacinto, the City of Tehachapi, and the City of Vista in the above-captioned matter
contains 6,000 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 22, 2019.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: lj@larryjoseph.com
Counsel for Amici Curiae

